IN THE SUPREME COURT OF THE UNITED STATES
SHAMEKE WALKER, PETITIONER
-againstUNITED STATES OF AMERICA, RESPONDENT
MOTION TO PROCEED IN FORMA PAUPERIS

The Petitioner, Shameke Walker, requests leave to file the annexed Petition
for Writ of Certiorari to the United States Court of Appeals for the Second Circuit
without prepayment of costs and to proceed in forma pauperis pursuant to Rule 39.
Undersigned counsel was assigned to represent Petitioner pursuant to the Criminal
Justice Act, 18 U.S.C. ยง 3006A in the District Court and on appeal to the Second
Circuit because Petitioner was indigent and incarcerated. Petitioner has remained
both incarcerated and indigent since the commencement of his case and to this day.
Accordingly, pursuant to 18 U.S.C. ยง3006A(d)(6) and Rule 39.1, no declaration in
compliance with 28 U.S.C. ยง1746 is required.
Dated:

Brooklyn, New York
February 16, 2021
S/ Michael O. Hueston
MICHAEL O. HUESTON, ESQ.
16 Court Street, Ste. 1800
Brooklyn, New York 11241
(718) 246-2900
mhueston@nyc.rr.com

Attorney for Petitioner Shameke Walker

1

